U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Brian Gene McCoy v. United States, No. 20-6788
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 29,
2020. The government’s response is now due, after one extension, on March 10, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 19, 2021, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is
endeavoring to minimize risks to the health and safety of our personnel responsible for the filing
and service of paper copies of Court documents by reducing the number of days each week on
which the filing and service of such documents are necessary and on which those personnel must
report to work in person.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6788
MCCOY, BRIAN GENE
USA

MOLLY C. QUINN
OFFICE OF THE FEDERAL PUBLIC DEFENDER
101 SOUTH MAIN AVE.
SUITE 400
SIOUX FALLS, SD 57104
605-330-4489
MOLLY_QUINN@FD.ORG

